             Office of Inspector General




May 19, 2006

RONALD E. HENDERSON
MANAGER, HEALTH AND RESOURCE MANAGEMENT

SUBJECT: Audit Report – Postal Service’s Injury Compensation Programs’
         Controversion and Challenge Process in Selected Areas
         (Report Number HM-AR-06-004)

This report presents the results of the U.S. Postal Service Office of Inspector General’s
(OIG) self-initiated audit of the Postal Service’s Injury Compensation Programs’
controversion1 and challenge2 process in the Eastern, New York Metro, Northeast,
Great Lakes, and Western Areas and the headquarters Injury Compensation Office3
(Project Number 05YG034HM001). Our objective was to determine, for chargeback
year4 (CBY) 2004, whether the Postal Service’s controversions and challenges for
workers’ compensation claims are effective in ensuring only eligible employees are
placed on the periodic roll.5

We concluded the Postal Service properly controverted and challenged almost all of the
workers’ compensation claims we reviewed and ensured only eligible employees were
placed on the periodic roll. The Postal Service could improve, however, its
controversion and challenge process in selected areas of operation. Specifically,
supervisors and injury compensation control offices (ICCO) did not always properly
controvert and/or challenge claims in accordance with Postal Service policies and
procedures. In addition, the ICCOs did not consistently follow Postal Service policies
and procedures to track and monitor controverted and/or challenged workers’
compensation claims submitted to the OWCP. As a result, the Postal Service paid
$57,536 in injury compensation costs for improperly controverted and/or challenged

1
  A controversion is an agency’s action to dispute the entitlement of Continuation of Pay (COP) for a traumatic injury.
COP is an injured employee’s entitlement of pay for up to 45 days of disability or medical treatment following a
traumatic injury. Postal Service supervisors may controvert a claim by completing the indicated portion of a DOL
Form Compensation Act (CA)-1, Federal Employee’s Notice of Traumatic Injury and Claim for Continuation of
Pay/Compensation.
2
  A challenge is the Postal Service’s term for any action to dispute questionable elements of an employee’s claim for
Federal Employees’ Compensation Act (FECA) benefits.
3
  These areas submit workers’ compensation claims to the Kansas City and New York Department of Labor (DOL)
Office of Workers’ Compensation Programs’ (OWCP) District Offices, which have jurisdiction over the claims. The
Postal Service Headquarters, manager, Health and Resource Management, recommended we review the Kansas
City and New York OWCP District Offices.
4
  The DOL OWCP Chargeback System is the mechanism by which the costs of compensation for work-related
injuries and deaths are billed annually to employing agencies. The chargeback billing period is from July 1 in
one year to June 30 the following year.
5
  The periodic roll is a system the OWCP uses that allows the U.S. Department of the Treasury to automatically pay
prolonged disability cases every 28 days and death cases every month, until advised otherwise by the OWCP.
Postal Service’s Injury Compensation Programs’                                                HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


workers’ compensation claims that, if properly controverted or challenged, may have
been denied.

In addition, the Postal Service did not convert $12,793 in COP to employees’ sick
and/or annual leave when required by Postal Service policies and procedures. We
used a statistical sample to project that, in CBY 2004, the Eastern, New York Metro,
Northeast, Great Lakes, and Western Areas and the headquarters Injury Compensation
Office paid at least $108,289 in COP for denied claims that were not recovered. This
represents $166,127 in questioned costs and will be reported as such in our
Semiannual Report to Congress. (See Appendix B.)

The report contains three recommendations to improve the Postal Service’s
controversion and challenge process in selected areas of operation. The manager,
Health and Resource Management, agreed with the monetary findings and
recommendations; however, he did not agree that one of the claims we reviewed was
improperly prepared for controversion. His comments, in their entirety, are included in
Appendix H.

                                                 Background
The FECA provides compensation benefits to civilian federal employees who are injured
in the course of federal employment. The OWCP administers FECA through 12 district
offices located across the U.S. The OWCP, a component of the Employment Standards
Administration within the DOL, administers the FECA program. The OWCP adjudicates
claims6 and pays compensation, medical, and death benefits for injured federal workers,
including Postal Service employees.

The law requires the Postal Service to participate in the OWCP and ensure coverage for
injured employees.7 The FECA covers all medical care that an employee needs to
recover from the effects of a work-related injury, including hospitalization, nursing
services, prosthetic appliances, and the services of an attendant when required for
severe injuries.8

Federal agencies later reimburse the OWCP through the chargeback billing process.
Every year, the OWCP furnishes each agency with a “chargeback bill,” which is a
statement of payments made on behalf of its injured employees.

While the OWCP has final authority with regard to approving and paying workers’
compensation claims, the employing agency has certain responsibilities. This includes
ensuring appropriate agency personnel understand their FECA responsibilities, notifying
injured employees of their rights and obligations under FECA, initiating the claim and

6
  Claims adjudication is the OWCP process of making a timely and fair decision to settle an injury claim.
7
  U.S. Code 39, § 1005(c).
8
  2004 Federal Employee Almanac, Medical Care Benefits, page 189.




                                                          2
Postal Service’s Injury Compensation Programs’                                                 HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


ensuring timely notification to the OWCP, providing and tracking COP, helping
employees return to work as soon as possible, and monitoring employees’ medical
status until a physician certifies the employees can return to work.

When an employee sustains a traumatic injury9 in the performance of duty, he or she
should file a written report on a DOL Form CA-1. The employee should give the form to
their supervisor within 30 days from the date of injury to be eligible for COP. In contrast,
an employee should complete a DOL Form CA-2, Notice of Occupational Disease and
Claim for Compensation, to make an occupational disease10 claim. Employees who
submit DOL Forms CA-1 and CA-2 meet statutory time requirements for FECA benefits
if they file the forms no later than 3 years from the date of injury or occupational
disease. (See Appendix C for a flowchart of the Postal Service’s and the OWCP’s initial
injury/workers’ compensation claims process.)

Postal Service Injury Compensation Program

The Postal Service Injury Compensation Program assists injured workers in completing
and submitting their workers’ compensation claims to the OWCP. It also facilitates the
return of injured workers to the workplace. The Postal Service also controverts and/or
challenges a claim if they believe an employee is not entitled to FECA benefits. To
dispute a claim, the Postal Service must provide sufficient evidence to the OWCP to
support its position that an employee does not meet the five basic requirements for a
compensable claim or is not entitled to COP based on one of nine established reasons.
The Postal Service may dispute injury claims through controversions, challenges, or
appeals to the Employees’ Compensation Appeals Board (ECAB).11 (See Appendix D
for the five basic compensable requirements and the nine reasons to controvert and
refuse COP payments.)

The headquarters vice president, Employee Resource Management, and the manager,
Health and Resource Management, oversee the Postal Service’s Injury Compensation
Program at the headquarters level. Headquarters establishes policies and procedures,
provides technical guidance to ensure uniform management of the program, identifies
training needs for those involved in administrating the program, coordinates efforts with
the DOL to meet the Postal Service’s responsibilities under FECA, provides reports to
Postal Service management about the status of the program, and identifies program
initiatives to enhance effective program management.



9
   A traumatic injury is defined as a wound or other condition of the body caused by external force, including stress or
strain. The injury must be identifiable by the time and place of occurrence and the member of the body affected; and
it must be caused by a specific event or incident, or series of events or incidents, within a single day or work shift.
10
    An occupational disease is defined as a condition produced in the work environment over a period longer than
one workday or shift. It may result from a systemic infection; repeated stress or strain; or exposure to toxins, poisons,
or fumes.
11
    Only employees whose claims for workers’ compensation benefits have been denied are eligible to file appeals to
the ECAB.




                                                           3
Postal Service’s Injury Compensation Programs’                                           HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


In addition, the area and district Human Resources and injury compensation managers
provide oversight for the administration of the Injury Compensation Program in the field.
Area Human Resources and injury compensation managers implement the national
program policies and procedures and oversee the program to ensure compliance with
those policies and procedures. For example, the area Human Resources and injury
compensation managers provide training and oversight of the injury compensation
functions for their respective district ICCOs12 (such as Area Program Reviews)13 which
assure uniformity and consistency in the overall operation of the Injury Compensation
Program. The district Human Resources and injury compensation managers implement
headquarters and area program policies, objectives, and action plans within the district
boundaries and provide training for supervisors in their respective district offices.

                           Objective, Scope, and Methodology
We discuss our objective, scope, and methodology in Appendix E in detail.

                                       Prior Audit Coverage
We discuss prior audit coverage in Appendix F.

                                                  Results

Controversions and Challenges Were Effective but the Process Needs
Improvement

Postal Service supervisors and ICCOs properly controverted and challenged almost all
of the workers’ compensation claims we reviewed and ensured only eligible employees
were placed on the periodic roll. The process, however, could be improved in selected
Postal Service areas of operation. We found supervisors and ICCOs did not always
follow the Postal Service’s controversion and challenge policies and procedures. For
example, the Postal Service improperly controverted and/or challenged some of the
workers’ compensation claims the OWCP accepted, which may have resulted in the
payment of unnecessary workers’ compensation costs. Postal Service supervisors and
ICCOs also sent claim forms to the OWCP indicating they were controverting and/or
challenging the claims when the Postal Service did not intend to controvert and/or
challenge the claims. In addition, supervisors and ICCOs submitted claims to the
OWCP with missing information or documentation required by Postal Service policy and
procedures and OWCP instructions.14

12
   The Eastern Area’s ICCOs have been consolidated to a Shared Service Center in Pittsburgh, Pennsylvania. The
headquarters manager, National Injury Compensation Program, provides oversight for their injury compensation
functions.
13
   Area Program Reviews also identify areas of strengths and weaknesses in order to effectively improve the
administration of the program.
14
   The OWCP provides instructions on the back of the claim forms for the employee and supervisor to properly
complete the form.




                                                       4
Postal Service’s Injury Compensation Programs’                                            HM-AR-06-004
 Controversion and Challenge Process in Selected Areas




From a universe of 1,973 controverted and/or challenged workers’ compensation claim
forms submitted to the Kansas City and New York OWCP District Offices in CBY 2004,
we statistically selected a sample of 139 claims. (See Appendices E and G for the
methodology and statistical sampling and projections, respectively.)

Of the 139 claims, the OWCP denied 53, thus upholding the Postal Service’s
controversion and/or challenge. An employee later withdrew a claim before the OWCP
adjudicated it. The OWCP accepted the remaining 85 as meeting the eligibility
requirements for FECA compensation and benefits (they denied the Postal Service’s
controversion and/or challenge). Of the 85 claims, only one resulted in an employee
being placed on the periodic roll.

Based on our review of the 85 claims, the Postal Service provided sufficient information
to controvert and/or challenge all but seven of the claims submitted to the OWCP district
offices (see the next section, Improper Controversions and/or Challenges). A review of
the remaining 78 claims also found that, in addition to the Postal Service providing
sufficient information to controvert or challenge the claim, the OWCP properly
adjudicated all15 of them based on the five basic requirements and nine reasons to
controvert and refuse the payment of COP. Specifically, when the Kansas City and
New York OWCP District Offices received the claims, the claims examiners (CE) further
developed the claims and properly denied the Postal Service’s controversions and/or
challenges based on the rationale cited in the employees’ claims acceptance letters.16
For example, in one case, the Postal Service controverted the claim based on the lack
of supporting medical documentation (causal relationship). Upon receipt of the claim at
the OWCP district office, the CE requested additional medical documentation from the
employee. As a result of the new documentation, the employee’s claim was accepted
and the CE’s rationale for denying the Postal Service’s controversion was “the
employee has now provided supporting factual and medical evidence sufficient to
support her claim.”

Improper Controversions and/or Challenges

Of the 139 claims, we identified seven that Postal Service supervisors and ICCOs
improperly controverted and/or challenged. We considered these claims improperly
controverted and/or challenged because the Postal Service did not provide detailed
information to support its position that employees were not entitled to FECA

15
   One claim, however, was not timely adjudicated by the OWCP for the employee’s entitlement to COP. The Postal
Service properly controverted the payment of COP on the claim, but the OWCP accepted the claim without making a
final decision on the employee’s entitlement to COP. As a result of our audit, the ICCO followed up with the OWCP
district office and received a final decision letter from the OWCP dated approximately 2 years after the claim was
accepted, approving the employee’s entitlement to COP.
16
   The OWCP sends the employee a claim acceptance letter to identify the medical condition for which the claim is
accepted and to advise the employee how to claim compensation benefits, obtain payment, or receive reimbursement
for payment of medical bills. It is also the mechanism the OWCP uses to explain to the employee (and the agency)
why they are denying the controversion and/or challenge. OWCP regulations require the claim acceptance letter.




                                                        5
Postal Service’s Injury Compensation Programs’                                                HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


compensation benefits. For example, the case file for one of the claims contained the
original letter the supervisor prepared for the OWCP challenging the validity of the
claim. We learned the ICCO sent a copy of the letter to the OWCP for their
consideration after the OWCP accepted the claim. The employee was later placed on
the periodic roll in June 2005 when she filed a claim for a recurrence of the injury.17

In another case, the Postal Service supervisor did not indicate on DOL Form CA-1,
block 36,18 that the Postal Service was controverting and/or challenging the claim, even
though the supervisor indicated in blocks 28 and 2919 that the employee did not meet
two of the FECA requirements for benefits (fact of injury and performance of duty
requirements). In addition, the ICCO did not prepare a cover letter or submit detailed
information to the OWCP to support the controversion and challenge. In the claim
acceptance letter to the employee, the CE denied the Postal Service’s controversion.
The ICCO told us the Postal Service should have provided comments in block 36 to
support their controversion of the claim.

Postal Service policy20 states the Postal Service may controvert a claim by completing
the indicated portion of DOL Form CA-1 and submitting detailed supporting information.
In addition, policy21 states the supervisor must properly complete DOL Form CA-1 and
adequately document the controversion package. It further states DOL Form CA-1
should be clearly marked and contains a full explanation for the basis of the
controversion.

Postal Service policy22 also states the supervisor should tailor the controversion and
challenge package to the facts of each case. It further states if the Postal Service does
not submit a written explanation of the dispute, the OWCP may accept the employee’s
report of injury as factual. Therefore, early and proper identification of controverted or
challenged claims is essential to permit the OWCP to give these claims priority in
processing and to avoid the possibility of substantial or erroneous payment of FECA
benefits.

Policy23 also states the area Human Resource office is responsible for implementing
the national Injury Compensation Program policies and directives and overseeing the


17
   A recurrence is when an injured employee is again disabled as a result of the original injury or occupational
disease, causing additional disability.
18
   Block 36 is a question the supervisor must answer regarding whether the employing agency is controverting the
employee’s claim for COP. If the Postal Service controverts COP, there must be a detailed reason in this block.
19
   Blocks 28 and 29 are questions the supervisor must answer regarding whether or not the employee was injured in
the performance of duty, and if the injury was caused by the employee’s willful misconduct, intoxication, or intent to
injure their self or another, respectively.
20
   Employee and Labor Relations Manual (ELM) 17.12, Section 545.731, Definition of Controversion,
September 2005.
21
   ELM 17.12, Section 545.75(a), Controversion Package, September 2005.
22
   Handbook EL-505, Injury Compensation Program, Section 8.3, Preparing the Controversion and Challenge
Package – ICCO, December 1995.
23
   Handbook EL-505, Section 1, The Postal Service Injury Compensation Program, December 1995.




                                                           6
Postal Service’s Injury Compensation Programs’                                               HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


area-wide program activities to ensure compliance with national policies and
procedures.

We also determined that 22 of the 139 claim forms we reviewed were submitted to the
OWCP indicating the Postal Service was controverting and/or challenging them, when
in fact they were not. For example, on one claim form the reason a supervisor gave for
an employee not to receive benefits was that the employee waited 3 days to file the
claim. On another claim, the supervisor’s reason was that the employee reported the
accident after a discussion was held regarding the employee’s attendance. Additional
reasons given by supervisors were “employee failed to follow safety rules” and “poor
attendance.” The ICCOs acknowledged these were not valid reasons to controvert
and/or challenge the claims but they did not remove the invalid information from the
claim forms before submitting them to the OWCP.

Postal Service policy24 states DOL Form CA-1 should be clearly marked and contains a
full explanation for the basis of the controversion. In addition, policy25 states that if the
supervisor does not provide a valid basis for the controversion, the ICCO should contact
the employee’s supervisor for the missing information. It also states26 that if the ICCO
finds an invalid reason given by the supervisor on the DOL Form CA-1, he or she
should contact the supervisor, explain that the reason(s) are not sufficient and then
properly annotate the form. The ICCO making the revision must then initial any
changes they make on the supervisor portion of the form.27

Incomplete Claims Forms

Of the 139 claim forms we reviewed, 29 were missing information Postal Service policy
and procedures and OWCP instructions require. The claim forms had block numbers
(questions) the employees and/or the supervisors did not adequately answer. For
example, block 1528 in 14 of the claims was missing information, including on one claim
the employee’s signature, and on 13 of the claims employees did not indicate they were
electing COP or sick and/or annual leave while disabled from work during the COP
entitlement period. On another claim, the supervisor answered the question, but did
not provide a supporting explanation as required. For example, in block 28 of DOL
Form CA-1, if the supervisor answers the employee was not injured in the performance
of duty, the supervisor must provide a written explanation.



24
   ELM 17.12, Section 545.75(a), Controversion Package, September 2005.
25
   Handbook EL-505, Section 4.4, Reviewing CA-1, Federal Employee’s Notice of Traumatic Injury and Claim for
Continuation of Pay – ICCO, December 1995.
26
   Postal Service Basic Injury Compensation Training Manual, Course Number 19Q01-11, Controversion Definition,
March 2005.
27
   Handbook EL-505, Section 4.4, Reviewing CA-1, Federal Employee’s Notice of Traumatic Injury and Claim for
Continuation of Pay – ICCO, December 1995.
28
   Block 15 is for the employee to sign his/her name and elect COP or sick and/or annual leave while off work due to
their disability.




                                                          7
Postal Service’s Injury Compensation Programs’                                            HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


Postal Service policy29 states that upon receiving the completed DOL Form CA-1 from
the employee, the supervisor should review it for completeness and accuracy and assist
the employee in correcting any deficiencies. In addition, the policy states the ICCO
should review DOL Form CA-1 for completeness and accuracy. If it is incomplete, the
ICCO should contact the employee, the employee’s representative, or the employee’s
supervisor for the missing information.

These conditions occurred because the Postal Service’s injury compensation
managers for the New York Metro, Northeast, and Western Areas and the headquarters
manager, National Injury Compensation Program, did not provide sufficient oversight to
ensure the ICCOs were following the Postal Service’s controversions and challenges
policies and procedures. Specifically, the injury compensation managers were not
ensuring the controversion and challenge packages and claim forms were properly
prepared before submission to the OWCP for adjudication.

In addition, most of the selected area Human Resources and injury compensation
managers conducted limited reviews of the controversion and challenge process in
their annual Area Program Reviews. For example, two reviews were limited to verifying
only if a cover letter or package had been prepared for controverted and challenged
claims and did not include a review to ensure the packages were properly prepared.
The area injury compensation managers told us they instead focused their Area
Program Reviews on other functions of the injury compensation process such as file
maintenance, medical management, third-party activity, and limited duty rehabilitations.
We noted, however, the Great Lakes Area did include a more thorough review of the
controversion and challenge process in its Area Program Reviews, which likely
contributed to the case files for this area having fewer discrepancies than those in the
other areas we reviewed.

Although inadequate oversight in the process resulted in a small number of claims
(seven) improperly controverted and/or challenged, the Postal Service paid $57,536 in
injury compensation costs for claims accepted by the OWCP in CBY 2004 that, if
properly controverted or challenged, may have been denied, as shown in Table 1. This
includes $50,89230 in compensation and medical payments; $4,099 in COP; and $2,545
in administrative fees.31




29
   Handbook EL-505, Section 3.6, Assisting the Employee in Reporting an Injury and Making a Choice of COP or
Leave – Supervisor; and Section 4.4, Reviewing CA-1, Federal Employee’s Notice of Traumatic Injury and Claim for
Continuation of Pay – ICCO, December 1995.
30
   This total includes $22,640 and $28,252 in compensation and medical payments, respectively.
31
   Administrative fees represent the amount the OWCP assesses federal agencies for managing workers’
compensation claims. The amount paid is approximately 5 percent of the Postal Service’s compensation and
medical. The Postal Service’s administrative fees increased 35 percent, from $32.9 million in CBY 2000 to
$44.3 million in CBY 2005.




                                                        8
    Postal Service’s Injury Compensation Programs’                                             HM-AR-06-004
     Controversion and Challenge Process in Selected Areas


    Table 1: Postal Service’s Workers’ Compensation Costs for Improperly
               Controverted and/or Challenged Claims, CBY 2004

                                                                                                             Total
                                                                       Total                             Compensation,
                          Compensation            Medical        Compensation and                         Medical, and
   Employees                Payments             Payments        Medical Payments             COP        COP Payments
         A                        $0                   $0                  $0                $2,923          $2,923
         B                        $0                  $86                 $86                    $0             $86
         C                   $22,083               $8,285            $30,368                   $325         $30,693
         D                        $0                 $221               $221                    $52            $273
         E                        $0              $14,854            $14,854                     $0         $14,854
         F                        $0                 $783               $783                   $799          $1,582
         G                      $557               $4,023             $4,580                     $0          $4,580
Subtotal                     $22,640              $28,252            $50,892                 $4,099         $54,991
Administrative Fees           $1,132               $1,413             $2,545                     $0          $2,545
 Total                       $23,772              $29,665            $53,437                 $4,099         $57,536
    Sources: Postal Injury Compensation System (PICS)32 and the Postal Service’s Payroll System33

    Conclusion

    The OWCP will not consider a claim compensable if it fails to meet any of the five basic
    requirements. Therefore, the Postal Service is obligated to controvert and/or challenge
    a claim if it does not meet those requirements. This assurance may have prevented the
    payment of $53,43734 in unrecoverable costs and $4,099 in recoverable costs by the
    Postal Service.

    In addition to the monetary impact, the Postal Service’s credibility is at risk with the
    OWCP when claims indicate the Postal Service is controverting and/or challenging
    them when, in fact, it is not. Submitting claims that contain missing information or
    documentation could diminish future chances of successfully controverting illegitimate
    claims. Also, not providing a valid reason to controvert and/or challenge a claim could
    give the perception the Postal Service unnecessarily controverts and/or challenges
    claims. As a result, the OWCP CEs may not seriously consider controversions and/or
    challenges and may accept claims they may otherwise deny if a valid reason were
    provided. According to Postal Service training materials, one way of securing this
    valued commodity is to ensure the ICCO does not submit “spurious” controversions.
    This will, in the final analysis, add to the Postal Service’s credibility with the OWCP and



    32
       PICS is an OIG system that contains weekly medical costs and workers’ compensation data received from the
    OWCP for each injured Postal Service employee.
    33
       The Postal Service’s Payroll System includes employees’ Pay Hours History files, Time and Attendance Collection
    System (TACS) data, cumulative adjustments, and pay calculations.
    34
       This amount includes $50,892 in compensation and benefits and $2,545 in administrative fees.




                                                            9
Postal Service’s Injury Compensation Programs’                                         HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


will also serve to enhance future chances of successfully controverting illegitimate
claims.35

Recommendation

We recommend the manager, Health and Resource Management, direct the injury
compensation managers in the New York Metro, Northeast, and Western Areas; and
the headquarters manager, National Injury Compensation Program, to provide:

     1. Sufficient oversight to their injury compensation control offices to ensure they are
        following the Postal Service’s controversions and challenges policies and
        procedures. This should include, as part of their annual Area Program Reviews,
        a thorough review for completeness and accuracy of the:

            a. Controversion and challenge packages.

            b. Workers’ compensation claim forms.

Management’s Comments

The manager, Health and Resource Management, agreed with the monetary findings
and recommendation. He stated he will ensure that program audits contain a section on
proper controversion and challenge management by June 16, 2006. He also stated this
audit change will be used as part of a standardized program review for every Postal
Service district office.

The manager disagreed, however, that for Employee E on page 9, Table 1, the
claim was improperly prepared for controversion. The manager told us that a DOL
Form CA-1, block 36, was annotated with the statement “pain” as a diagnosis, and the
form was sent to the OWCP. He stated the injury claim was controverted on the basis
of a medical diagnosis of “pain,” which meets one of the criteria for controversion – Fact
of Injury. The manager stated this diagnosis did not demonstrate a connection between
the pain, the injury claim, and the employers’ liability, and thus was controverted. The
manager further stated the OWCP responded to this controversion by sending a
development letter to the employee (claimant) indicating that the evidence was not
sufficient and requesting specific documentation within 30 days. The claim was
eventually accepted by OWCP; however, only medical expenses were paid and the
employee did not receive COP or compensation payments.




35
 Postal Service Basic Injury Compensation Training Manual, Course Number 19Q01-11, Controversion Definition,
March 2005.




                                                      10
Postal Service’s Injury Compensation Programs’                                              HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


Evaluation of Management’s Comments

The manager, Health and Resource Management’s planned action is responsive to the
recommendation and should correct the issues identified in the finding. We disagree,
however, with the manager’s comment that the claim for Employee E was properly
prepared for controversion. The only information the Postal Service provided to the
OWCP was the annotation in block 36 of the DOL Form CA-1 (with “pain” as the
diagnosis). Based on Postal Service and OWCP policies and procedures, this was not
sufficient information to support the controversion that the employee was not entitled to
FECA compensation benefits because the ICCO did not provide detailed information
related to the facts and circumstances surrounding the injury claim. As a result, upon
receiving the additional documentation from the employee, the OWCP accepted the
employee’s claim as factual. Therefore, we stand by our conclusion that the claim was
improperly controverted.

Insufficient Claims Management

The Postal Service ICCOs did not consistently follow Postal Service policies and
procedures to track and monitor controverted and/or challenged workers’ compensation
claims submitted to the OWCP. The ICCOs did not always:

     •   Update controverted and/or challenged claims in their injury compensation
         tracking systems.

     •   Follow up with employees to recover COP when the OWCP denied claims or
         paid employees COP when they were not entitled.

     •   Request the CE’s rationale for denied controversions and/or challenges when an
         employee’s claim acceptance letter did not provide it.

     •   Properly notify employees when their claims were being controverted and/or
         challenged.

Of the 139 case files reviewed, 73 were not updated in the Human Resources
Information System (HRIS)36 and/or the Claim Control Register (CCR).37 In addition,
the COP Tracking Log38 did not contain the necessary information to properly track and
monitor the controverted and challenged claims. For example, the CCRs in the case

36
   The HRIS is a series of inter-related databases that allow managers to keep track of employees and information
about them. For example, the injury compensation module in HRIS is used to improve the ability of ICCOs to track
and control injury compensation claims by creating logs and reports used to evaluate injury activities.
37
   The CCR is a document used to provide an up-to-date picture of the status of a case. It should be placed on the
left-hand side of the case file and updated manually.
38
   The ICCO uses the COP Tracking Log to track the total number of hours an employee uses during their COP
entitlement period. This log assists the ICCO in their efforts to ensure employees do not receive COP for more than
45 calendar days for any one injury.




                                                         11
Postal Service’s Injury Compensation Programs’                                             HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


files did not contain any written information regarding the activities39 associated with the
claim.

In addition, we found employees were paid COP for 10 of the 139 workers’
compensation claims, which the OWCP eventually denied. Of these 10 claims, we
identified five where the Postal Service did not follow up with the employees to
ensure management converted COP to sick and/or annual leave. Also during our
review of one claim, we found an employee was paid 16 hours of COP for another DOL
Form CA-2 claim40 and the Postal Service did not follow-up to ensure they recovered
the COP.41 The ICCOs agreed these employees were not entitled to the COP
payments and they have taken sufficient action to ensure the COP payments are
converted to the employees’ sick and/or annual leave as required by Postal Service
policy. Table 2 shows the total amount of hours and COP payments made to the
employees.

Table 2: Total Amount of Hours and COP Paid to Employees

       Employees                   Total COP Hours                   Total COP Payment
           H                               16                                 $337
           I                                8                                 $145
           J                              264                               $5,883
           K                               40                                 $782
           L                              256                               $5,344
          M                                16                                 $302
       TOTAL                              600                              $12,793
Source: PICS and the Postal Service’s Payroll System

Postal Service policy42 provides guidance for the ICCO to monitor the employees’
appeal activity, update the HRIS, and use the HRIS call-up43 to track follow-up actions.
In addition, the CCR provides an up-to-date status of the claim. Policy44 also states the
senior ICS should track claim costs and forecast trends over specified periods of time
by using the COP tracking logs, CCRs, and reports available via the injury
compensation reporting systems. It also states accurate data are essential in order to
provide facts on a particular case or information about the overall injury compensation

39
   Examples of activities associated with a claim are documenting the date the claim was submitted to the OWCP
district office; sending the employee a letter notifying them their claim is being controverted and/or challenged;
updating claim information in HRIS; and documenting the OWCP’s date of acceptance or denial of the claim and/or
COP.
40
   The DOL Form CA-2 claim was not in our sample. We found a copy of an email in a claim case file that was in our
sample from the injury compensation specialist (ICS) to the employee’s supervisor indicating the employee was not
entitled to the COP payment.
41
   Employees who file a DOL Form CA-2 claim are not entitled to COP.
42
   Handbook EL-505, Section 8.6, Responding to OWCP Formal Decision, December 1995.
43
   A call-up is an electronic message available through the HRIS to provide a list of suspended items that require
attention on a specific date.
44
   Handbook EL-505, Sections 12.4 and 12.6, Using Logs, Registers, and Reports, December 1995.




                                                        12
Postal Service’s Injury Compensation Programs’                                           HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


program. Policy further states the ICS should familiarize staff with aids that can assist
them in the performance of their tasks. Policy 45 states if an employee elects COP and
the claim is subsequently denied, any COP granted to the employee must be charged to
sick or annual leave or considered an overpayment of pay at the employee’s option.
Policy46 also provides guidance for the ICCO to track employee COP days used via the
COP Tracking Log. Further, the TACS provides front-end monitoring of COP to allow
the ICCO to timely convert COP to sick and/or annual leave when appropriate, thereby
avoiding unnecessary payroll adjustments.

Our review of the OWCP decision letters for the 85 claims the OWCP accepted as
meeting FECA eligibility requirements disclosed that 21 of them did not contain the CEs’
rationale for denying the controversion and/or challenge. Also, in 92 of the 139 cases
reviewed, the ICCO did not notify the employee in writing that the Postal Service
controverted and/or challenged their claim.

The Code of Federal Regulations (CFR)47 states when the OWCP denies a Postal
Service controversion, it should explain to the employing agency and employee the
basis for their decision.48 Postal Service policy49 states the ICCO should review the
OWCP’s rationale for denying the Postal Service’s controversion or challenge to
determine if it is based on valid reasons. In addition, Postal Service policy50 states the
ICCO should notify the employee in writing when they are controverting or challenging
their claim. Postal Service policy51 also states the OWCP should furnish a written
explanation for the basis of the controversion to the employee, employee beneficiary, or
representative. The policy52 further states the area Human Resources office is
responsible for implementing national Injury Compensation Program policies and
directives and overseeing the area-wide program activities to ensure compliance with
national policies and procedures.

These conditions also occurred because the Postal Service area and headquarters
injury compensation managers did not provide sufficient oversight, and their focus was
on other functions of the injury compensation process. Injury compensation managers
did not establish adequate management oversight of the controverted and/or challenged
case files to ensure sufficient tracking and monitoring; or did not continue claims
management until the employee returned to full duty and finished medical care and the
OWCP determined their disability was no longer job-related. Additionally, area and
district ICCOs did not establish measures to track the success rate of their

45
   ELM 17.12, Section 543.41, Continuation of Regular Pay, September 2005.
46
   Handbook EL-505, Section 13.1, Tracking Time for COP, December 1995.
47
   20 CFR, Parts 10 and 25, Vol. 63. No. 227, Section 10.119, What action will OWCP take with respect to
information submitted by the employer?, November 25, 1998.
48
   Postal Service Basic Injury Compensation Training Manual, Course Number 19Q01-11, Controversion Definition,
March 2005.
49
   Handbook EL 505, Section 8.6, Responding to OWCP Formal Decision, December 1995.
50
   Handbook EL 505, Section 8.5, Notifying the Employee of Controversion or Challenge – ICCO, December 1995.
51
   ELM 17.12, Section 545.75 (e), Controversion Package, September 2005.
52
   Handbook EL-505, Section 1, The Postal Service Injury Compensation Program, December 1995.




                                                       13
Postal Service’s Injury Compensation Programs’                        HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


controversions and challenges, which could identify potential trends and problem areas
related to the controversion and challenge process.

The inadequate oversight resulted in the Postal Service not converting $12,793 in COP
to employees’ sick and/or annual leave as required by Postal Service policies and
procedures. We projected that in CBY 2004 the Eastern, New York Metro, Northeast,
Great Lakes, and Western Areas and the headquarters Injury Compensation Office paid
at least $108,289 in COP for denied claims. They did not recover those costs.

When the ICCOs do not obtain the OWCP CEs’ rationale for denying the controversions
and/or challenges, it does not allow the Postal Service the opportunity to determine if
the CEs considered the controversions and/or challenges when determining whether to
accept the employees’ claims. In addition, it does not allow the ICCOs to determine if
they should elevate claims to the area office based on their disagreement with the CEs’
decision. Also, not notifying employees in writing that their claims were being
controverted and/or challenged prolongs the adjudication process. Specifically,
notifying employees the Postal Service is controverting and/or challenging their claims
affords employees an opportunity to submit additional factual evidence to support their
claims for FECA benefits so the OWCP can make a timely formal decision on the
claims. For example, if the OWCP receives a claim without sufficient medical
documentation, they will usually send the employee a development letter allowing them
30 days to submit additional documentation before making a formal decision on the
claim.

Corrective Actions

Based on our work, Postal Service management initiated action to recover $12,793 of
COP costs paid to employees. The injury compensation managers notified the
employees they were not entitled to the COP payments and afforded them the
opportunity to convert the COP payments to either sick and/or annual leave.

Recommendations

We recommend the manager, Health and Resource Management, direct the injury
compensation managers in the New York Metro, Northeast, Great Lakes, and Western
Areas; and the headquarters manager, National Injury Compensation Program, to
provide:

   2. Sufficient oversight of their injury compensation control offices by including in
      their Area Program Reviews, steps to validate the proper tracking and monitoring
      of controverted and challenged claims in the Human Resource Information
      System and the Claim Control Register. These steps should include:

           a. Updating controverted and/or challenged claims in their injury
              compensation tracking systems.



                                                  14
Postal Service’s Injury Compensation Programs’                          HM-AR-06-004
 Controversion and Challenge Process in Selected Areas




           b. Following up with employees to recover continuation of pay costs when
              the Office of Workers’ Compensation Programs denies claims or pays
              employees continuation of pay to which they are not entitled.

           c. Requesting the claims examiners’ rationale for denied controversions
              and/or challenges when an employee’s claim acceptance letter does not
              provide it.

           d. Ensuring management properly notifies employees when their claims are
              being controverted and/or challenged.

We also recommend the manager, Health and Resource Management:

   3. Establish a performance measurement tool for the area and district injury
      compensation managers to track the success rate of their controversion and
      challenge process. This tool should be used to assist headquarters and area
      management with identifying trends and problem areas for the purpose of
      improving the process.

Management’s Comments

The manager, Health and Resource Management, agreed with the monetary findings
and recommendations. He stated the Postal Service will include controversion and
challenge tracking in the Human Capital Enterprise System. He also stated that area
offices are currently identifying COP costs not recovered for denied claims occurring in
fiscal years 2003 through 2006. This process will be completed by May 31, 2006, and
recoveries will be initiated immediately thereafter. The manager stated that field offices
will be instructed to request the CE’s rationale for a denied controversion, as
appropriate, and that employees are to be notified if their claims are controverted or
challenged. He also stated that notices will be sent to the areas by June 16, 2006,
reminding them of the need to ask for the rationale and employee notification and this
process will be monitored by audits. In addition, the Postal Service will institute a
performance report by June 16, 2006.

Evaluation of Management’s Comments

The manager’s comments are responsive to the recommendations, and the planned
actions should correct the issues identified in the finding.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.



                                                  15
Postal Service’s Injury Compensation Programs’                        HM-AR-06-004
 Controversion and Challenge Process in Selected Areas




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, director, Human
Capital, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc:   Deborah Giannoni-Jackson
      Mary Anne Gibbons
      Kevin T. McGovern
      Russ R. Bochain
      James R. Cahall, Jr.
      Jan K. Lonsdale
      John P. O’Connor
      Roy J. Stanley
      Steven R. Phelps




                                                  16
Postal Service’s Injury Compensation Programs’            HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                                          APPENDIX A

                                      ABBREVIATIONS

CA             Compensation Act
CBY            Chargeback Year
CCR            Claim Control Register
CE             Claims Examiner
CFR            Code of Federal Regulations
COP            Continuation of Pay
DOL            Department of Labor
ECAB           Employees’ Compensation Appeals Board
ELM            Employee and Labor Relations Manual
FECA           Federal Employees’ Compensation Act
FOIA           Freedom of Information Act
HRIS           Human Resources Information System
ICCO           Injury Compensation Control Office
ICS            Injury Compensation Specialist
OIG            Office of Inspector General
OWCP           Office of Workers’ Compensation Programs
PICS           Postal Injury Compensation System
TACS           Time and Attendance Collection System




                                                  17
   Postal Service’s Injury Compensation Programs’                                             HM-AR-06-004
    Controversion and Challenge Process in Selected Areas


                                                  APPENDIX B

        SUMMARY OF MONETARY IMPACT TO THE POSTAL SERVICE FOR
                      CHARGEBACK YEAR 2004

   Table 3: Questioned Costs

                                            QUESTIONED COSTS53
                             Unsupported/        Unsupported/
                            Unrecoverable        Recoverable         Recoverable
                                Costs54             Costs55             Costs            TOTAL
              Improperly Prepared Controverted and/or Challenged Claims (Actual Amounts)
Compensation Payments                     $22,640                                                                $22,640
Medical Payments                          $28,252                                                                $28,252
COP Payments                                                         $4,099                                           $4,099
Administrative Fees                      $2,545                                                                       $2,545
                                COP not Converted to Sick and/or Annual Leave
COP not Converted –
Actual                                                                                        $302                     $302
COP not Converted –
Projected                                                                                 $108,289              $108,289
  Total                                   $53,437                    $4,099               $108,591              $166,127
   Notes:
   Improperly Prepared Controverted and/or Challenged Claims
           •    In the sample of 139 claims, only 16 claims received compensation payments totaling at least $181,108.
                Of the 16 claims that received compensation payments, seven were improperly controverted and/or
                challenged totaling $22,640.
           •    In the sample of 139 claims, 92 claims received medical payments totaling at least $235,433. Of the
                92 claims with medical payments, seven were improperly controverted and/ or challenged totaling
                $28,252.
           •    In the sample of 139 claims, 55 claims received COP totaling $117,219. Of the 55 claims with COP,
                seven were improperly controverted and/or challenged totaling $4,099.
           •    Administrative fees are 5 percent of the compensation and medical payment. The administrative fee
                assessed for the seven improperly controverted and/or challenged claims when paid is at least $2,545
                (or 5 percent of $50,892).

   COP not Converted to Sick and/or Annual Leave
           •  One claim outside of our sample received COP for a DOL Form CA-2 claim totaling $302.
           •  In the sample of 55 claims receiving COP, the OWCP denied 10 and management should have
              converted the COP to the employee’s sick and/or annual leave. Of these 10 claims, management did
              not convert five (as of January 20, 2006) totaling $12,491.
           •  Based on the sample results of five claims totaling $12,491, we project that in our universe at least
              $108,289 in COP was paid to employees whose claim was denied and COP was not recovered.



   53
      Questioned costs because the OIG believes the cost is unnecessary and/or unsupported.
   54
      Costs questioned/unsupported non-recoverable because of missing or incomplete documentation or failure to
   follow required procedures. In addition, the costs should not have been incurred and are not recoverable.
   55
      Costs questioned/unsupported recoverable because of missing or incomplete documentation, or failure to follow
   required procedures. In addition, the costs should not have been incurred; however, they are recoverable.




                                                           18
Postal Service’s Injury Compensation Programs’                                                                          HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                                                            APPENDIX C

FLOWCHART OF THE POSTAL SERVICE AND THE DEPARTMENT OF
LABOR OFFICE OF WORKERS’ COMPENSATION PROGRAMS INITIAL
    INJURY/WORKERS’ COMPENSATION CLAIMS PROCESS
                        Employee Sustains Traumatic Injury or Occupational Disease/Illness and
                                              Notifies Supervisor on:
                                       DOL Form CA-1 for Traumatic Injury or
                                  DOL Form CA-2 for Occupational Disease/Illness
                Note: Traumatic injury claims must be submitted within 30 days from date of injury to be eligible for COP. However,
             employees may report injuries up to 3 years from the date of injury or occupational disease/illness to be eligible for workers’
                                                                   compensation.



                                           Supervisor Responsibilities Within 24 Hours of Injury
         •    Verbally notifies ICCO of injury.
         •    Completes DOL Form CA 16, Authorization for Examination and/or Postal Service Form 3971, Request for Notification of
              Absence, to authorize COP for DOL Form CA-1 claims, if applicable.
         •    Completes Postal Service Form 1769, Accident Report; and forwards all documentation to ICCO immediately after injury.

                        Supervisor Responsibilities Within 24 Hours of Receipt of DOL Form CA-1 or CA-2
         •    Advises the employee of their rights and responsibilities.
         •    Reviews the claim for completeness, dates and signs, and submits any documentation to support the validity of the claim.
         •    Forwards the claim with supporting documentation to the ICCO.




   ICCO reviews the claim for completeness, creates a case file, determines if the five basic requirements have been met,
  and forwards claim and supporting documentation to the OWCP within 10 working days following receipt of the form from
                                                      the employee.



                                                           Claim has wage loss;
                  YES                   medical expenses exceeded $1,500; disputed by Postal Service;                                NO
                                                          or surgery is requested.


           Claim Adjudication                                                                                Payment for medical treatment
      CE determines if the five basic                                                                     ($1,500 or less) is paid, if applicable.
    requirements have been met and if                                    NO                                The claim is not adjudicated and is
       there is sufficient evidence to                                                                     administratively closed (Short Form
           adjudicate the claim.                                                                                Closures) by the OWCP.

                                                             Development Process
                                                          Letter sent to claimant and/or
                  YES                                     agency to explain deficiencies
                                                            and afford due process.


         Claim Accepted
    Benefits are paid and case is                           Claim reviewed with additional
  forwarded to CE for Quality Case                         information obtained during the
            Management.                                        development process to                                  NO
                                                              determine if the five basic
                                                            requirements have been met.

                                                                                                              Claim Denied
                                                                                                            Employee provided
                                                                                                              appeal rights.




                                                                         19
Postal Service’s Injury Compensation Programs’                          HM-AR-06-004
 Controversion and Challenge Process in Selected Areas




                                          APPENDIX D

     FIVE BASIC REQUIREMENTS FOR FEDERAL EMPLOYEES’
              COMPENSATION ACT BENEFITS AND
 NINE REASONS TO REFUSE PAYMENT OF CONTINUATION OF PAY

The FECA and Postal Service Handbook EL-505 define the five basic requirements that
a claim must meet in order to be compensable as follows:
   1. TIME: Written notice of injury must be filed within 30 days after the injury (to be
      eligible for COP) or within 3 years after the occurrence of injury.
   2. CIVIL EMPLOYEE: The injured employee or decedent must be or have been an
      employee of the Postal Service at the time of injury or exposure, regardless of
      the length of time on the job or the type of position held.
   3. FACT OF INJURY: The employee or decedent must have sustained an injury as
      defined in the FECA.
   4. PEFORMANCE OF DUTY: The injury, illness, or death must have resulted from
      an incident or circumstance occurring while the employee was performing official
      duties.
   5. CAUSAL RELATIONSHIP: The injury, disability, or death must have been
      caused by conditions of employment. Causal relations are medical issues and
      must be supported by medical documentation provided by a recognized
      physician.
In addition, the DOL OWCP allows employing agencies to controvert COP for any
reason; however, the employing agency may refuse to pay COP only if they base the
controversion on one of the nine reasons given below:

   1. The disability was not caused by a traumatic injury.

   2. The employee is a volunteer working without pay or for nominal pay, or a
      member of the office staff of a former President.

   3. The employee is not a citizen or a resident of the U.S. or Canada.

   4. The injury occurred off the employing agency’s premises and the employee was
      not involved in official “off premises” duties.

   5. The injury was proximately caused by the employee’s willful misconduct, intent to
      bring about injury or death to self or another person, or intoxication.




                                                  20
Postal Service’s Injury Compensation Programs’                       HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


   6. The injury was not reported on DOL Form CA-1 within 30 days following the
      injury.

   7. Work stoppage first occurred 45 days or more following the injury.

   8. The employee initially reported the injury after his or her employment was
      terminated.

   9. The employee is in the Civil Air Patrol, Peace Corps, Youth Conservation Corps,
      a Work Study Program, or similar group.




                                                  21
Postal Service’s Injury Compensation Programs’                                              HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                                               APPENDIX E

                      OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective56 was to determine whether the Postal Service’s controversions and
challenges were effective in ensuring only eligible employees were placed on the
periodic roll. To accomplish our objective, we reviewed and analyzed injury claims filed
by Postal Service employees submitted during CBY 2004 to the Kansas City and
New York OWCP District Offices.57 The Kansas City and New York District Office
jurisdiction includes the Postal Service’s Eastern, New York Metro, Northeast, Great
Lakes, and Western Areas; and the headquarters Injury Compensation Office. We
reviewed Postal Service and OWCP policies and procedures and interviewed Postal
Service management.

To determine whether the Postal Service’s controversions and challenges were
effective in ensuring only eligible employees were placed on the periodic roll, we used a
statistical sample of CBY 2004 employees’ controverted and/or challenged injury claims
submitted by the Postal Service to the Kansas City and New York OWCP District
Offices. This resulted in a universe of 1,973 cases,58 and a sample size of 139 cases –
62 and 77 claims in the Kansas City and New York OWCP District Offices, respectively.
We discuss the statistical sampling and projections in Appendix G.

We reviewed and analyzed each case file in our sample to determine whether the
Postal Service notified the OWCP they were controverting the COP and/or challenging
the claim. We reviewed the claims to determine whether the Postal Service followed
policies and procedures when preparing the controversion and/or challenge packages.
We also reviewed the total amount of compensation and medical paid for claims
accepted by the OWCP, in which the Postal Service improperly controverted and/or
challenged the claim. In addition, we obtained the total COP hours and payments made
to the employees from the Postal Service’s Payroll System.59

To determine whether the Postal Service recovered COP paid to employees when they
were not entitled to the payments, we reviewed data from the Postal Service’s Payroll
System. We also reviewed the data to determine if the Postal Service made pay
adjustments to convert COP to sick leave, annual leave or leave without pay when the

56
   Our original objective was to determine whether the OWCP and the Postal Service were in compliance with the
claims adjudication policies and procedures and thus ensuring only eligible employees were placed on the periodic
roll for new claims filed in CBY 2004. The audit objective related to the OWCP’s compliance with claims adjudication
procedures was closed due to the DOL’s refusal to allow the OIG access to OWCP files and personnel to audit this
function.
57
   The Postal Service Headquarters manager, Health and Resource Management, recommended we review the
Kansas City and New York OWCP District Offices.
58
   The universe total of 1,973 includes 1,501 and 472 claims the Postal Service controverted and/or challenged and
submitted to the New York and Kansas City OWCP District Offices, respectively.
59
   The data was extracted from the Postal Service’s Payroll System and provided to us by the OIG Computer
Assisted Assessment Techniques staff.




                                                         22
Postal Service’s Injury Compensation Programs’                          HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


OWCP determined the employee was not entitled to COP payments. We discussed our
findings with Postal Service management and provided them a copy of our fieldwork
findings for their comments.

This audit was conducted from September 2005 through May 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances.

Data Reliability Testing

For the case files reviewed, we tested the data to determine whether the records were
reliable. We compared data for specific fields extracted from PICS (DOL case number,
employee’s name, date of injury, social security number) to the information on the
OWCP decision letter and the employee’s Injury Compensation Program Analysis
System report. All of the case files obtained through our sample were available for our
review and the data did match in all 139 case files. Based on our data reliability testing,
we concluded the data was sufficiently reliable to meet the objective.




                                                  23
Postal Service’s Injury Compensation Programs’                              HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                                          APPENDIX F

                                PRIOR AUDIT COVERAGE
We identified the following prior audit relative to the objective of this audit.

Northern Virginia District’s Process for Submitting, Controverting, and Challenging Injury
Claims (Report Number HC-AR-99-001, dated September 29, 1999). The audit
concluded the Northern Virginia District’s ICCO could improve its processes for timely
submissions, controversions, and challenges of claims. Specifically, supervisors and
ICSs did not always timely process injury claims, which caused delays in the OWCP’s
processing of Postal Service employees’ injury claims. Also, the Postal Service’s ICSs
did not always properly controvert and challenge injury claims causing submission of
incomplete information for adjudication to the OWCP. Furthermore, the Postal Service’s
injury compensation manager did not establish adequate management controls over
injury claims to ensure that Postal Service and FECA policies and procedures were
followed.




                                                  24
Postal Service’s Injury Compensation Programs’                          HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                                           APPENDIX G

 STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF THE
       CONTROVERSION AND CHALLENGE PROCESS FOR
                POSTAL SERVICE EMPLOYEES

Purpose of the Sampling

The objective of this audit was to determine whether the Postal Service’s controversions
and/or challenges to injury compensation claims were effective in ensuring only eligible
employees were placed on the periodic roll.

In support of this objective, the audit team employed a stratified sample to select cases
for review. The sample design allows statistical projections for several attributes related
to compliance with controversion and/or challenge submission policies and claims
management policies. An example of the first attribute category is whether the Postal
Service filled out forms properly. An example of the second category is whether the
Postal Service gave the affected employees notification of the controversion and/or
challenge. We also projected the value of COP payments the Postal Service should
have recovered from employees when the OWCP denied their claims.

Definition of the Audit Universe

The audit universe consists of 1,973 cases involving claims the Postal Service
controverted and/or challenged and submitted to the Kansas City and New York OWCP
District Offices in CBY 2004. The OIG’s Computer Assisted Assessment Techniques
staff extracted the audit universe from the PICS database. The universe does not
include cases for which there was no controversion indicator in the database.
Employees filed two types of claims: traumatic injury and occupational disease.

Sample Design and Modifications

We chose a stratified sample design because we did not have prior knowledge
regarding potential claim management differences between New York and Kansas City
cases or between the traumatic injury and occupational disease claims. Within each
stratum, we used a simple random selection, without replacing cases. We defined the
strata as the combination of the two OWCP districts (Kansas City and New York) and
the two claim types (traumatic injury and occupational disease).

We found 472 traumatic injury claims in the Kansas City data and 1,492 claims in the
New York data. We found nine occupational disease claims in the New York OWCP
district. There were no occupational disease claims in the Kansas City OWCP District.




                                                  25
Postal Service’s Injury Compensation Programs’                                         HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


We sized the sample based on testing compliance with various controls (attribute tests).
To size the sample, we assumed an expected deviation rate of about 10 percent based
on the OWCP standard that 90 percent of cases should meet the 45-day processing
time.60 We calculated the sample size for a two-sided 90 percent confidence
interval with about +/- 4 precision. We determined that, for these parameters, we
needed to sample approximately 140 cases. We allocated the sample to three strata:
62 traumatic injury cases for the Kansas City OWCP District and 68 traumatic injury
cases and nine occupational disease cases for the New York OWCP District (139 cases
total in sample).

We made all case selections for the sample using the “randbetween” function in Excel
to assign random numbers to the cases in the universe listing.

Statistical Projections of the Sample Data

Methodology

For each attribute condition evaluated, we calculated the point estimate of the total
number of deviations — as well as the associated confidence interval — for a stratified
sample, as described in Chapter 3 of Model Assisted Survey Sampling, Särndal,
Swensson, and Wretman, 1991.

We also projected one variable: recoverable cost from COP paid to an employee for a
claim the OWCP ultimately denied. We applied the group ratio model to improve the
precision compared to that obtained by direct projection. The group ratio model is
described in Chapter 7 of Model Assisted Survey Sampling, Särndal, Swensson, and
Wretman, 1991. For an analysis of the recoverable cost from COP, we used the ratio of
the recoverable COP amount for claims denied (primary variable) to the number of
claims denied for which COP had been paid (auxiliary variable). The achieved precision
was still poor with the ratio model, so we report only the lower (conservative) bound of
the confidence interval for this projection.

Results

Based on the sample of 139 controverted and/or challenged claims, we projected the
following results to the audit universe of 1,973 controverted and/or challenged claims in
CBY 2004 for the Kansas City and New York OWCP District Offices. We based all
confidence interval bounds on a 90 percent confidence level. When achieved precision
was insufficient to discriminate between acceptable and unacceptable conditions, we
report only the conservative (lower) bound.



60
   A standard of 90 percent processed within 45 days came from the table of Standard Adjudication and
Administrative Actions Timeframes from the OWCP Procedure Manual, Section 0-0100-5, Standards for Traumatic
Injury Cases. One of the original measures was to be timeliness of case processing.




                                                     26
Postal Service’s Injury Compensation Programs’                        HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


Controversions and Challenges Were Effective But Process Needs Improvement

     1. Based on the sample results, we project that at least 32 (1.6 percent) Postal
        Service controversion or challenge submissions did not include the required
        cover letter.

             a. The sample included seven claims for which the Postal Service
                controversion and/or challenge submission did not have cover letter
                information. The dollar amount associated with those claims was
                $57,536. We are unable to project this amount to the audit universe
                because of extremely poor precision in the calculated confidence
                interval.

     2. Based on the sample results, we project that the number of claims with an
        invalid reason for being controverted and/or challenged is between 335 and
        605 (17.0 to 30.7 percent). Our unbiased point estimate is that 470 claims
        (23.8 percent) have an invalid reason for controverting and/or challenging the
        claim written on DOL Form CA-1.

     3. Based on the sample results, we project that the number of claims with missing
        information lies between 338 and 608 (17.2 and 30.8 percent). Our unbiased
        point estimate is that 473 claims (24.0 percent) were missing information
        required by Postal Service policies and procedures and OWCP instructions.

     4. Based on the sample results, we project that the number of claims that meets
        at least one of the above three conditions is between 800 and 1,102 (40.6 and
        55.8 percent). Our unbiased point estimate is 951 claims (48.2 percent).

Insufficient Claims Management

   1. Based on the sample results, we project that the number of claims that did not
      have proper tracking and monitoring lies between 929 and 1,234 (47.1 to
      62.5 percent). Specifically, they were not updated in the HRIS, the CCR,
      and COP Tracking Log. Our unbiased point estimate is that 1,081 claims
      (54.8 percent) did not have proper tracking and monitoring.

   2. Based on the sample results, we project that the number of claims accepted by
      the OWCP but missing the CE’s rationale for denying the controversion and/or
      challenge lies between 281 and 541 (14.2 to 27.4 percent). Our unbiased point
      estimate is that the universe contains 411 accepted claims (20.8 percent) that
      are missing this rationale.

   3. Based on the sample results, we project that the number of claims for which the
      employee was not notified of a controversion and/or challenge lies between
      1,147 and 1,438 (58.1 to 72.9 percent). Our unbiased point estimate is that in



                                                  27
Postal Service’s Injury Compensation Programs’                        HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


       1,292 claims (65.5 percent) the Postal Service did not notify the employee they
       were controverting and/or challenging the claim.

   4. Based on the sample results, we project that the number of claims that meets at
      least one of the above three conditions is between 1,419 and 1,669 (71.9 and
      84.6 percent). Our unbiased point estimate is 1,544 claims (78.3 percent).

Other Measures

   1. Based on the sample results, we project that at least 67 claims (3.4 percent)
      involved a COP payment for a claim the OWCP denied.

   2. Based on the sample results, we project the Postal Service paid at least
      $108,289 in COP to employees whose claims were denied. The amount was not
      recovered.




                                                  28
Postal Service’s Injury Compensation Programs’           HM-AR-06-004
 Controversion and Challenge Process in Selected Areas


                  APPENDIX H. MANAGEMENT’S COMMENTS




                                                  29
Postal Service’s Injury Compensation Programs’           HM-AR-06-004
 Controversion and Challenge Process in Selected Areas




                                                  30
